Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 6, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re 1361:

Regina B. Heisler, individually and as the executrix of the
Succession of Frederick P. Heisler v. Girod LoanCo, LLC

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Rehearing referenced above contains 1,312 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,,
■)

7

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 6th day of May 2021.

